HHS/OIG-AUDIT--Proposed Changes to OMB Circular A-21 Regarding the Financial
Management of Recharge Centers (A-09-96-04003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Report on Proposed Changes to the Office of Management and Budget Circular
A-21 Regarding the Financial Management of Recharge Centers," (A-09-96-04003)
March 5, 1997
Complete
Text of Report is available in PDF format (1.4 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report discusses ways to clarify guidance provided in the Office of Management
and Budget (OMB) Circular A-21 regarding the financial management of recharge
centers at universities. A recharge center operates as an in-house enterprise
that provides goods and services to individual users and other operating units
on a cost reimbursement basis. The objective of this report is to recommend
changes to Circular A-21 based on an evaluation of the Office of Inspector
General (OIG) reviews of recharge centers.
Generally, Circular A-21 requires each center to operate as a closed, self-adjusting
system. By closed, we mean that all allowable expenses and revenues related
to operating a center should be recorded in the center's accounts. By self-adjusting,
we mean that the fund balance should accumulate the surplus or deficit of the
operation of a center such that the billing rate can be adjusted to keep the
fund balance within a reasonable range. However, we found that inadequate policies
and controls over recharge centers at the 15 universities we visited resulted
in $1.9 million in overcharges to the Federal Government. The $1.9 million
related to 21 of the 87 recharge centers reviewed. Specifically, recharge centers:
accumulated surplus fund balances and deficits which were not used in the
computation of subsequent billing rates;
overstated billing rates by transferring funds from center accounts or
including unallowable costs in rate calculations;
billed users inequitably; and
used recharge center fund balances (surpluses or deficits) inappropriately
to calculate facilities and administrative (F&A) cost rates.
The ambiguity and lack of specific instructions in Circular A-21 may have
contributed to the significant diversity in practice at universities. As such,
we believe that the starting point for improving university oversight of recharge
centers is to revise Section J.44 of Circular A-21 in a manner similar to the
recently revised OMB Circular A-87, " Cost Principles for State, Local
and Indian Tribal Governments." Thus, we identify ways to clarify the
criteria in Circular A-2 1 regarding the financial management of recharge centers.
This would include the creation of criteria for developing and reviewing billing
rates, and accounting for and applying surplus and deficit balances.
The Deputy Assistant Secretary for Grants and Acquisition Management (DASGAM)
concurred with our recommendation to have the Assistant Secretary for Management
and Budget (ASMB) request that OMB incorporate our proposed criteria into Circular
A-21. We also received comments from the Council on Governmental Relations
(COGR) which comprises 140 research-intensive universities in the United States
and helps develop policies and practices related to the administration and
conduct of Federal research and training. COGR generally agreed with our findings
and recommendations and offered to assist in publicizing the report's recommendations.